No. 20-128

In the Supreme Court of the United States
__________________
BIG PORT SERVICE DMCC,
Petitioner,
v.
CHINA SHIPPING CONTAINER LINES CO. LTD.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

__________________

REPLY BRIEF FOR PETITIONER

__________________

JONATHAN A. HERSTOFF
Counsel of Record
JESSICA L. SBLENDORIO
HAUG PARTNERS LLP
745 Fifth Avenue
New York, NY 10151
(212) 588-0800
jherstoff@haugpartners.com
Counsel for Petitioner

October 22, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
RULE 29.6 STATEMENT
The Rule 29.6 statement in Big Port Service
DMCC’s petition for writ of certiorari remains accurate.

ii
TABLE OF CONTENTS
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

There Is No Cause of Action for a Party
Seeking to Avoid Arbitration . . . . . . . . . . . . . 2

II.

The Circuit Split Is Deep and Acknowledged
..................................... 4

III.

CSCL Does Not Dispute that the All Writs
Act Would Not Have Permitted the Issuance
of an Anti-Arbitration Injunction Here . . . . . 8

IV.

CSCL Does Not Dispute that the Second
Circuit’s Case Law Providing for the
Automatic Issuance of an Anti-Arbitration
Injunction Conflicts with This Court’s
Precedents . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

V.

CSCL’s Remaining Arguments Do Not
Warrant the Denial of Certiorari . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF AUTHORITIES
CASES
AT&T Broadband, LLC v. Int’l Broth. of Elec.
Workers, 317 F.3d 758 (7th Cir. 2003) . . . . . . . . 6
Comcast Corp. v. Nat’l Ass’n of African AmericanOwned Media, 140 S. Ct. 1009 (2020) . . . . . . . . . 4
eBay Inc. v. MercExchange, L.L.C.,
547 U.S. 388 (2006). . . . . . . . . . . . . . . . . . . . . . . 10
Friends for All Children, Inc. v. Lockheed Aircraft
Corp., 717 F.2d 602 (D.C. Cir. 1983) . . . . . . . . . . 9
Hartley v. Stamford Towers Ltd. P’ship,
36 F.3d 1102, 1994 WL 463497
(9th Cir. Aug. 26, 1994) . . . . . . . . . . . . . . . . . . 4, 5
Hull v. Norcom, Inc.,
750 F.2d 1547 (11th Cir. 1985). . . . . . . . . . . . . . . 7
In re Am. Express Fin. Advisors Sec. Litig.,
672 F.3d 113 (2d Cir. 2011) . . . . . . . . . . . . . . . 4, 5
In re Y & A Grp. Sec. Litig.,
38 F.3d 380 (8th Cir. 1994). . . . . . . . . . . . . . . . . . 4
Klay v. United Healthgroup, Inc.,
376 F.3d 1092 (11th Cir. 2004). . . . . . . . . 2, 4, 7, 8
PaineWebber Inc. v. Hartmann,
921 F.2d 507 (3d Cir. 1990) . . . . . . . . . . . . . . . . . 4
Societe Generale de Surveillance, S.A. v. Raytheon
European Mgmt. & Sys. Co.,
643 F.2d 863 (1st Cir. 1981) . . . . . . . . . . . . . . . . . 4

iv
Trustmark Ins. Co. v. John Hancock Life Ins.
Co. (U.S.A.), 631 F.3d 869 (7th Cir. 2011) . . . . . . 6
STATUTES
9 U.S.C. § 10(a)(4) . . . . . . . . . . . . . . . . . . . . . . 6, 7, 11
28 U.S.C. § 1651(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
INTRODUCTION
China Shipping Container Lines Co. Ltd.’s (“CSCL”)
brief in opposition is most notable for what it does not
dispute.
CSCL offers no response to Big Port Service
DMCC’s (“BPS”) argument (Pet. 26-29)—in line with
Eleventh Circuit case law—that there is no cause of
action for “wrongful arbitration,” and that it was
therefore improper for the Second Circuit to affirm the
grant of declaratory and injunctive relief against BPS.
Nor does CSCL respond to BPS’s argument (Pet. 2934) that the All Writs Act would not have permitted the
anti-arbitration injunction that issued here. Moreover,
CSCL does not respond to BPS’s argument (Pet. 34-36)
that even assuming arguendo that courts have a
remedial power to enjoin an arbitration, there is no
basis for the Second Circuit’s rule that automatically
grants such relief without consideration of the
traditional equitable factors required by this Court’s
precedents.
Further, CSCL does not seriously dispute that the
Courts of Appeals have reached differing conclusions
on: (i) whether there is a cause of action for a party
seeking to avoid arbitration; and (ii) when a court may
issue an anti-arbitration injunction. CSCL’s attempts
to distinguish BPS’s cited cases are unconvincing, as
CSCL ignores the pertinent point: the Courts of
Appeals apply different standards when determining
whether a party seeking to avoid arbitration is entitled
to relief. For example, CSCL would not have obtained
any relief in the Eleventh Circuit, because the Eleventh

2
Circuit has squarely held that there is no cause of
action for “wrongful arbitration.” Moreover, CSCL
would not have obtained injunctive relief in the
Seventh Circuit, which applies this Court’s traditional
test in analyzing the propriety of anti-arbitration
injunctions. In contrast, because this case arose in the
Second Circuit, CSCL was permitted to: (i) commence
a summary proceeding; and (ii) obtain declaratory
relief and an anti-arbitration injunction without
satisfying the requirements mandated by this Court
and other circuits. Certiorari should be granted to
resolve this circuit split.
ARGUMENT
I.

There Is No Cause of Action for a Party
Seeking to Avoid Arbitration

As detailed in the petition and as correctly
explained by the Eleventh Circuit, there is no cause of
action for “wrongful arbitration.” Pet. 26 (citing Klay
v. United Healthgroup, Inc., 376 F.3d 1092, 1098 (11th
Cir. 2004)). Accordingly, there was no basis for
recognizing CSCL’s suit, which proceeded summarily
without the protections (e.g., discovery) afforded by the
Federal Arbitration Act (“FAA”) and the Federal Rules
of Civil Procedure. Pet. 26-29. CSCL says little in
response to this argument, aside from incorrectly
asserting that BPS has failed to challenge the grant of
declaratory relief. Opp. i, 17. Contrary to CSCL’s
statement, BPS explicitly challenges the grant of
declaratory relief, arguing, for example, that “the
Second Circuit erred in upholding the district court’s
decision to entertain CSCL’s suit and grant CSCL
affirmative relief[,]” and that “the district court should

3
have declined to issue a declaratory judgment[.]” Pet.
27, 29. As BPS explained, the Second Circuit should
not have recognized a sui generis summary action for a
party seeking to avoid arbitration. Pet. 27-29.
CSCL wrongly argues that BPS is seeking an
advisory opinion from this Court. Opp. i, 17. Quite the
contrary, BPS seeks a ruling from this Court that the
Second Circuit erroneously recognized a cause of action
for CSCL’s attempt to avoid arbitration, and therefore
should not have granted any type of relief—
declaratory, injunctive, or otherwise. Such a ruling
would allow BPS to pursue arbitration against CSCL,
as permitted by the ruling from the Singapore Court of
Appeal. Indeed, the fact that there is no cause of action
for “wrongful arbitration” demonstrates that: (i) the
Second Circuit erred in recognizing a broad remedial
power to issue anti-arbitration injunctions; and (ii) an
anti-arbitration injunction can be issued only under the
All Writs Act—i.e., when necessary for a court to
vindicate its own jurisdiction. But even if this Court
were to uphold the declaratory judgment, a ruling that
the injunction was improper would still provide BPS
with meaningful relief, as BPS would no longer be
subject to an injunction and the risk of contempt
proceedings. Simply put, this case poses no risk of the
Court rendering an advisory opinion.
CSCL argues that the Second Circuit’s recognition
of CSCL’s suit does not implicate the federal policy in
favor of arbitration, and suggests that a special rule
should apply whenever a party believes that it is not
subject to an arbitration agreement. Opp. 13-16, 18-20.
But CSCL misses the point: nothing in the FAA, in any

4
other statute, or in this Court’s precedents, permits a
party to commence an action to avoid an arbitration, let
alone a summary proceeding lacking the protections
afforded by the FAA and the Federal Rules of Civil
Procedure. The Second Circuit’s rule permitting antiarbitration injunctions to issue as a matter of course is
inconsistent with the federal policy in favor of
arbitration. Recognition of a cause of action to avoid
arbitration also conflicts with this Court’s principle
that causes of action should not be implied lightly. Cf.
Comcast Corp. v. Nat’l Ass’n of African AmericanOwned Media, 140 S. Ct. 1009, 1015 (2020)
(recognizing that “even in the era when this Court
routinely implied causes of action, it usually insisted on
legal elements at least as demanding as those Congress
specified for analogous causes of action actually found
in the statutory text.”). Regardless, CSCL’s view that
it was entitled to the relief it obtained is a merits
question, and does not support the denial of certiorari.
II.

The Circuit Split Is Deep and Acknowledged

CSCL incorrectly dismisses the circuit split as a
“pretext.” Opp. 21. This characterization would come
as a surprise to the Second Circuit, which has explicitly
discussed the circuits’ differing views on when an antiarbitration injunction may issue. See In re Am.
Express Fin. Advisors Sec. Litig., 672 F.3d 113, 141,
141 n.20 (2d Cir. 2011) (citing Societe Generale de
Surveillance, S.A. v. Raytheon European Mgmt. & Sys.
Co., 643 F.2d 863 (1st Cir. 1981); PaineWebber Inc. v.
Hartmann, 921 F.2d 507, 511 (3d Cir. 1990); Klay, 372
F.3d at 1099; In re Y & A Grp. Sec. Litig., 38 F.3d 380,
382, 382-83 (8th Cir. 1994); Hartley v. Stamford Towers

5
Ltd. P’ship, 36 F.3d 1102, 1994 WL 463497 (9th Cir.
Aug. 26, 1994)). Specifically, the Second Circuit noted
that: (i) the First Circuit has found the power to issue
an anti-arbitration injunction to be a “concomitant” of
the power to compel arbitration under the FAA; (ii) the
Third Circuit has concluded that an anti-arbitration
injunction is automatically required whenever a court
finds that the dispute is not arbitrable; and (iii) the
Eighth, Ninth, and Eleventh Circuits have measured
the propriety of an anti-arbitration injunction under
the strictures of the All Writs Act. Id. The Second
Circuit then adopted a broad rule that seemingly
authorizes an anti-arbitration injunction whenever a
court finds a dispute not to be subject to arbitration.
Id. at 141. And if there was a question about the
breadth of the Second Circuit’s rule, any doubt was
eliminated by its decision in this case. Pet. App. 8.
Indeed, the Second Circuit found injunctive relief
appropriate despite the district court’s express refusal
to apply the traditional test governing permanent
injunctive relief. Id. (affirming the district court’s
grant of injunctive relief); Pet. App. 31-32 n.15 (district
court decision stating that under Second Circuit law,
courts “do[] not have to satisfy the traditional factors
courts consider in granting injunctive relief in order to
enjoin the arbitration[,]” and holding that “[a] court’s
finding that there is no agreement to arbitrate is all
that is required to enable it to enjoin an arbitration.”).
Under this Court’s traditional test or under the All
Writs Act, an anti-arbitration injunction would not
have issued here.
In seeking to minimize the circuit conflict, CSCL
wrongly dismisses BPS’s cited Seventh Circuit

6
authority finding that an anti-arbitration injunction is
warranted only if the traditional equitable factors (e.g.,
irreparable harm) are satisfied. Opp. 25 (citing AT&T
Broadband, LLC v. Int’l Broth. of Elec. Workers, 317
F.3d 758 (7th Cir. 2003)). Specifically, CSCL claims
that AT&T is inapplicable because it arose under the
Norris-LaGuardia Act. Opp. 25. But CSCL ignores the
pertinent analysis, in which the Seventh Circuit
explained that even “if the Norris-LaGuardia Act were
out of the picture[,]” there was no irreparable injury,
and therefore “no justification for an injunction.”
AT&T, 317 F.3d at 762. Moreover, CSCL ignores BPS’s
other cited Seventh Circuit authority (see Pet. 17),
which found that an anti-arbitration injunction was
unwarranted because: (i) there was no irreparable
harm; and (ii) any argument that the dispute was not
arbitrable could be raised later in “a proceeding under
the Federal Arbitration Act to deny enforcement to the
award.” Trustmark Ins. Co. v. John Hancock Life Ins.
Co. (U.S.A.), 631 F.3d 869, 872 (7th Cir. 2011)
(Easterbrook, J.) (citing 9 U.S.C. § 10(a)(4)). As
Trustmark correctly recognized, a party who believes
that a dispute is not arbitrable has recourse by way of
a proceeding to vacate the arbitrator’s award.
Specifically, if—as CSCL argues—there was no
agreement to arbitrate, any award by the arbitrators
would be in excess of their authority, which could be
grounds for vacatur of the award. 9 U.S.C. § 10(a)(4)
(providing that a district court may vacate an
arbitration award “where the arbitrators exceeded
their powers”). Had the Second Circuit followed this
reasoning, it would have reversed the anti-arbitration
injunction that was issued here and permitted the
arbitration to proceed. CSCL’s disputes about whether

7
it was a party to the contract, whether it communicated
directly with BPS prior to getting the bunkers, and
whether it was required to pay for the marine bunkers
that it undisputedly consumed, therefore would have
been decided by the arbitrators in the first instance.
And if the arbitrators issued an award in favor of BPS,
CSCL would be free to seek vacatur of the award under
9 U.S.C. § 10(a)(4) if it believed that the arbitrators
lacked the authority to make the award.
Moreover, CSCL wrongly dismisses the import of
Eleventh Circuit’s Klay decision because that case
involved a question about whether a particular dispute
was arbitrable rather than whether the parties had
entered into an arbitration agreement. Opp. 23-24.
But Klay did not hinge upon this distinction. Rather,
as detailed in the petition (Pet. 13-16), Klay analyzed
three types of injunctions (“traditional” injunctions,
“statutory” injunctions, and All Writs Act injunctions),
and concluded that an anti-arbitration injunction can
be upheld only under the All Writs Act. See Klay, 376
F.3d at 1104. Contrary to CSCL’s suggestion, Klay
broadly held that “‘[w]rongful arbitration’ . . . is not a
cause of action for which a party may sue[,]” and
therefore concluded that a traditional injunction is not
a viable way to enjoin an arbitration. Id. at 1098.
Moreover, CSCL’s reliance (Opp. 24) on Hull v.
Norcom, Inc., 750 F.2d 1547 (11th Cir. 1985) is
misplaced because in that pre-Klay case, it appears
that the parties did not dispute that injunctive relief
would be proper if the court found the underlying
contract to be unenforceable. Here, and in Klay, the
propriety of injunctive relief as a remedy is squarely
disputed.

8
In sum, the courts of appeals are divided as to when
an anti-arbitration injunction may be issued.
Certiorari should be granted to provide guidance on
this important issue.
III.

CSCL Does Not Dispute that the All Writs
Act Would Not Have Permitted the
Issuance of an Anti-Arbitration Injunction
Here

In addition to CSCL’s failure to contend that there
is a cause of action for a party seeking to avoid
arbitration, CSCL offers no response to BPS’s
argument (Pet. 29-34) that the All Writs Act would not
have permitted the issuance of an injunction here.
This silence is telling, because there is no viable
argument that the All Writs Act would permit the
issuance of an anti-arbitration injunction simply to
recognize the Singapore decision. As the Eleventh
Circuit recognized:
[A]n All Writs Act injunction is predicated upon
some other matter upon which a district court
has jurisdiction. Thus, while a party must “state
a claim” to obtain a “traditional” injunction,
there is no such requirement to obtain an All
Writs Act injunction—it must simply point to
some ongoing proceeding, or some past order or
judgment, the integrity of which is being
threatened by someone else’s action or behavior.
Klay, 376 F.3d at 1100. This discussion is consistent
with the text of the All Writs Act, which permits
United States federal courts to issue “all writs
necessary or appropriate in aid of their respective

9
jurisdictions and agreeable to the usages and principles
of law.” 28 U.S.C. § 1651(a) (emphasis added).
Nothing in the All Writs Act permits the issuance of an
injunction against an arbitration that in no way affects
a United States federal order, judgment, or ongoing
proceeding. An All Writs Act injunction would be
especially unsuitable where—as here—the Singapore
decision explicitly states that it is not making “a
comment on the viability” of BPS’s “claim in arbitration
proceedings overseas.” A-841.1 Simply put, there can
be no dispute that under the All Writs Act standard, an
anti-arbitration injunction never would have been
issued against BPS. Certiorari should be granted to
determine when an anti-arbitration injunction may be
issued.

1

CSCL attempts to avoid this conclusion by the Singapore Court
of Appeal by pointing to a declaration from CSCL’s counsel that
offers an extra-textual interpretation of the Singapore court’s
statement. Opp. 10-11. Although BPS strongly believes that the
Singapore Court of Appeal’s statement unambiguously
demonstrates that it was not foreclosing BPS from commencing
arbitration in the United States, CSCL’s disagreement shows—if
anything—that there is a dispute concerning the meaning of the
Singapore Court of Appeal’s decision, which is properly resolved by
the arbitrators in the first instance. Cf. Friends for All Children,
Inc. v. Lockheed Aircraft Corp., 717 F.2d 602, 607 (D.C. Cir. 1983)
(“As the affidavits make clear, the determinations of foreign law
that would have to be made to evaluate the availability of adequate
alternative fora are extremely difficult and would require a great
deal of expertise not readily available to us.”).

10
IV.

CSCL Does Not Dispute that the Second
Circuit’s Case Law Providing for the
Automatic Issuance of an Anti-Arbitration
Injunction Conflicts with This Court’s
Precedents

CSCL offers no response to BPS’s argument (Pet.
34-36) that even assuming arguendo that there is a
cause of action for a party seeking to avoid arbitration,
the Second Circuit’s decision permitting the automatic
issuance of an anti-arbitration injunction conflicts with
this Court’s precedents. Nor could it, given the district
court’s analysis—endorsed by the Second Circuit—
stating that anti-arbitration injunctions are not subject
to this Court’s precedents governing the grant of
injunctive relief. Pet. App. 31-32 n.15. There can be no
serious dispute that this standard is irreconcilable with
this Court’s precedents, which make clear that
permanent injunctive relief may be granted only if:
(1) the plaintiff has suffered an irreparable injury;
(2) remedies available at law are inadequate to
compensate for that injury; (3) the balance of hardships
favors an equitable remedy; and (4) the public interest
would not be disserved by the issuance of an injunction.
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391
(2006). Tellingly, CSCL does not dispute that there
would be no irreparable harm in the absence of
injunctive relief here. CSCL’s silence is
understandable, because, as explained supra, any
award by the arbitrators would be reviewable by way
of a request by CSCL that the award be vacated. For
example, if—as argued by CSCL and strongly disputed
by BPS—a court determines that CSCL did not agree
to arbitrate, then the arbitrators’ award would be

11
subject to vacatur as being in excess of their powers.
See 9 U.S.C. § 10(a)(4). Accordingly, given the absence
of irreparable harm, an anti-arbitration injunction is
unwarranted. The Second Circuit’s conclusion to the
contrary cannot be squared with this Court’s
precedents.
V.

CSCL’s Remaining Arguments Do Not
Warrant the Denial of Certiorari

Rather than addressing BPS’s arguments, CSCL
spends much of its brief raising factual disputes about
the record before the district court and the Second
Circuit. Opp. 1-13. Resolution of these disputes is
unnecessary to deciding the Question Presented, and
CSCL’s arguments therefore do not support the denial
of certiorari. For instance, CSCL argues that the
Singapore courts reached a final decision, rather than
an interlocutory decision. Opp. 9-11. Although the
Singapore Court of Appeal’s decision shows, by itself,
that CSCL is incorrect (see A-841), CSCL’s factual
disagreement only highlights that: (i) arbitrators with
subject-matter expertise should have been permitted to
decide the parties’ dispute in the first instance; and
(ii) it was improper for the district court to recognize
CSCL’s extra-statutory cause of action and summarily
issue declaratory and injunctive relief. Moreover,
CSCL makes much of the fact that long before the
Singapore Court of Appeal’s decision, BPS predicted to
the district court that the Singapore courts would
resolve the parties’ dispute. Opp. 5-6, 11. And CSCL
emphasizes the district court’s finding that BPS’s
prediction judicially estopped BPS from arguing that
the Singapore courts did not ultimately decide the

12
viability of arbitration in the United States. Opp. 5-6,
11. But BPS’s prediction was made long before the
Singapore Court of Appeal declined to decide the
viability of arbitration in the United States.
Accordingly, there is no inconsistency between:
(i) BPS’s earlier prediction about what the Singapore
courts would decide; and (ii) BPS’s later arguments to
the district court after the Singapore Court of Appeal
issued its decision. Therefore, it is unsurprising that
the Second Circuit expressly declined to rely on the
district court’s judicial-estoppel finding as a basis for
affirmance. Pet. App. 7-8.2
In sum, CSCL’s arguments do not support the
denial of certiorari.
CONCLUSION
The petition for a writ of certiorari should be
granted.

2

CSCL’s suggestion that the Second Circuit adopted the district
court’s judicial-estoppel finding (Opp. 12) is incorrect.

13
Respectfully submitted,
HAUG PARTNERS LLP
Jonathan A. Herstoff, Esq.
Counsel of Record
Jessica L. Sblendorio, Esq.
745 Fifth Avenue
New York, New York 10151
212-588-0800
jherstoff@haugpartners.com
Counsel for Petitioner
Big Port Service DMCC

